No. 20-

IN THE

Ouprente Court of tije Zlinitett Otatat
AMERICAN HOSPITAL ASSOCIATION, ET AL. ,

v.

Petitioners,

NORRIS COCHRAN, IN HIS OFFICIAL CAPACITY
AS ACTING SECRETARY OF HEALTH AND
HUMAN SERVICES,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,748 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 10, 2021.

Colin Case Hogan
Wilson-Epes Printing Co., Inc.

